United States Department of Agriculture
Office of Inspector General




Controls Over the Grant Management
Process of the Office of Advocacy and
Outreach




                                          Audit Report 91099-0001-21
                                          February 2013
                                     Controls Over the Grant Management Process of the
                                              Office of Advocacy and Outreach

                                                     Audit Report 91099-0001-21

What Were OIG’s
Objectives
To evaluate the policies,
procedures, and internal
controls used by OAO to
select the FY 2012 recipients
of grants funded through the      The Office of Advocacy and Outreach needs
Outreach and Assistance for
Socially Disadvantaged            to improve the policies, procedures, and
Farmers and Ranchers              internal controls used to select applicants
Program.                          to receive grants through the Outreach and
What OIG Reviewed                 Assistance for Socially Disadvantaged
                                  Farmers and Ranchers Program.
OIG reviewed OAO’s policies
and procedures related to its
grant management process.         What OIG Found
OIG also examined 57
applications initially selected   The Office of Advocacy and Outreach (OAO) initially selected
by OAO officials to receive       applicants to receive fiscal year (FY) 2012 grants through the
grants, as well as the 71         Outreach and Assistance for Socially Disadvantaged Farmers and
applications selected by OAO      Ranchers Program (Section 2501 Program), even though these
officials after issuance of our   applicants may not have been the most meritorious and deserving
Fast Report on May 18, 2012.      candidates. OAO officials disregarded regulatory requirements and
There were 193 applications       guidelines cited in the Funding Opportunity Announcement (FOA) in
submitted in FY 2012 for          making those selections. Also, they had no documentation to support
consideration.                    their decisions and could not explain why some applicants that
                                  appeared more deserving were not selected to receive grant funds.
What OIG Recommends
                                  We reported these conditions in a Fast Report on May 18, 2012.
OAO needs to strengthen and
document the policies,            Based on our Fast Report, OAO reselected applicants for the
procedures, and internal          Secretary’s consideration in July 2012. We evaluated the process
controls related to its grant     used to reselect applicants and concluded that it was more impartial
management process. The           and transparent than the process used to select the initial applicants.
agency agreed with our            We notified the Acting Assistant Secretary for Administration of our
recommendations and we            conclusions on August 2, 2012.
accepted management
decision.                         In the fall of 2012, OIG performed additional work to review how
                                  well OAO was monitoring its grantees. This final report includes
                                  additional recommendations intended to strengthen OAO’s processes
                                  for selecting grantees and help the agency better monitor grantees’ use
                                  of funds.
                           United States Department of Agriculture
                                   Office of Inspector General
                                    Washington, D.C. 20250


DATE:          February 28, 2013

AUDIT
NUMBER:        91099-0001-21

TO:            Gregory L. Parham
               Acting Assistant Secretary for Administration

               Carolyn Parker
               Director
               Office of Advocacy and Outreach

ATTN:          Lennetta Elias
               Audit Liaison Officer
               Office of the Chief Financial Officer

FROM:          Gil H. Harden
               Assistant Inspector General for Audit

SUBJECT:       Controls over the Grant Management Process of the Office of Advocacy and
               Outreach


This report presents the results of the subject audit. Your written response to the discussion draft
report, dated February 11, 2013, is included in its entirety at the end of this report. Excerpts
from your response and the Office of Inspector General’s position are incorporated into the
relevant sections of the report. Based on your responses to the discussion draft, dated
February 11, 2013, and the Fast Report 91099-0001-21 (1), dated May 18, 2012, we accept
management decision on all recommendations, and no further response to this office is
necessary.

Please follow your agency’s internal procedures in forwarding documentation for final action to
the Office of the Chief Financial Officer. In accordance with Departmental Regulation 1720-1,
final action needs to be taken within 1 year of each management decision to prevent being listed
in the Department’s annual Agency Financial Report.

We appreciate the courtesies and cooperation extended to us by members of your staff during our
audit fieldwork and subsequent discussions.
Table of Contents

Background and Objectives ....................................................................................1
Finding 1: OAO Initially Selected Less Deserving Applicants To Receive
FY 2012 Grants ........................................................................................................3
   Recommendation 1 ...............................................................................................7
   Recommendation 2 ...............................................................................................7
   Recommendation 3 ...............................................................................................7
   Recommendation 4 ...............................................................................................8
   Recommendation 5 ...............................................................................................8
   Recommendation 6 ...............................................................................................8
   Recommendation 7 ...............................................................................................9
   Recommendation 8 ...............................................................................................9
Finding 2: FYs 2010 and 2011 Section 2501 Grant Funds Not Monitored .....11
   Recommendation 9 .............................................................................................12
   Recommendation 10 ...........................................................................................13
Scope and Methodology .........................................................................................14
Abbreviations .........................................................................................................16
Agency’s Response .................................................................................................17
Background and Objectives

Background
The Office of Advocacy and Outreach (OAO), an office within Departmental Management of
USDA, was established by the Food, Conservation, and Energy Act of 2008, to assist farmers
and ranchers who: (1) have modest-sized operations, (2) have recently begun operations, or
(3) are classified as socially disadvantaged, to gain access to USDA programs.1 OAO uses the
Outreach and Assistance for Socially Disadvantaged Farmers and Ranchers Program
(hereinafter, referred to as the Section 2501 Program) to gain and improve that access.2 The
Farm Bill authorized $20 million for the Section 2501 Program in FY 2012.3

The Section 2501 Program provides grant funds for outreach, training, education, and technical
assistance to encourage and assist socially disadvantaged farmers, ranchers, and forest
landowners to purchase and operate farms, ranches, and non-industrial forest lands. The
outreach efforts involve the use of formal and informal education and training presentations that
are designed to inform socially disadvantaged farmers and ranchers about USDA programs, and
to increase their participation in those programs.

Federal regulations require OAO to use a competitive process to select organizations4 that
receive grant funds through the Section 2501 Program.5 The regulations state that OAO officials
must award grants competitively to ensure that the most meritorious applicants receive funds,
unless they can justify a deviation from competition. The regulations provide guidance related to
evaluating applicant proposals, acquiring documentation from the award recipients, monitoring
the use of funds by award recipients, and taking corrective action if necessary.

On April 18, 2012, the Secretary of Agriculture requested that we evaluate the procedures used
by OAO to select the FY 2012 proposed recipients of grants funded through the Section
2501 Program. The Secretary’s request was based on a hotline complaint, which alleged that
OAO had not established adequate procedures and internal controls over the Section
2501 Program. The complaint also alleged that OAO officials were not adequately overseeing

1
  Generally, for the purposes of outreach and assistance, the term “socially disadvantaged” is defined in Section
2501 of the Food, Agriculture, Conservation, and Trade Act of 1990, as a group whose members have been
subjected to racial or ethnic prejudice without regard to their individual identity. The Consolidated Farm and Rural
Development Act added gender to the definition.
2
  The Section 2501 Program was authorized by the Food, Agriculture, Conservation, and Trade Act of 1990 to
support entities such as institutions of higher education and community-based organizations that provide outreach,
technical assistance, and education to socially disadvantaged farmers and ranchers.
3
  The Food, Conservation, and Energy Act of 2008 provided $75 million in funding for the Section 2501 Program.
That amount was to be disbursed as follows: $15 million in FY 2009, and $20 million each in FYs 2010 through
2012.
4
  Organizations eligible to receive Section 2501 Program grant funds include: 1890 Land-Grant Institutions, Indian
Tribal Community Colleges, Alaska Native Cooperative Colleges, Hispanic-serving post-secondary educational
institutions, other accredited post-secondary educational institutions, Indian tribes, and community-based
organizations.
5
  7 Code of Federal Regulations (CFR) 2500, OAO Federal Financial Assistance Programs, General Award
Administrative Procedures, dated October 26, 2011, and 7 CFR 3015.158, Uniform Federal Assistance Regulations.

                                                                         AUDIT REPORT 91099-0001-21               1
the use of grant funds, and that the office lacked documentation to support the methodology
used to select proposed recipients of Section 2501 Program grants.

We performed audit procedures based on the Secretary’s request and reported our preliminary
findings to the Assistant Secretary for Administration through a Fast Report on May 18, 2012. 6
Based on our report, OAO re-evaluated and reselected applicants for the Secretary’s
consideration in July 2012. We evaluated the process used to reselect applicants and notified the
Acting Assistant Secretary for Administration of our conclusions on August 2, 2012.

Objectives
To evaluate the policies, procedures, and internal controls used by OAO to select the
FY 2012 recipients of grants funded through the Outreach and Assistance for Socially
Disadvantaged Farmers and Ranchers Program.




6
 “Controls over the Grant Management Process of the Office of Advocacy and Outreach—Section 2501 Program
Grantee Selection for Fiscal Year 2012” (Fast Report 91099-0001-21 (1), May 18, 2012).

2     AUDIT REPORT 91099-0001-21
Finding 1: OAO Initially Selected Less Deserving Applicants To
Receive FY 2012 Grants

OAO initially selected 57 applicants to receive FY 2012 grants through the Section 2501
Program despite the fact that they may not have been the most meritorious and deserving. OAO
officials did not use a consistent and competitive process to select proposed recipients, and did
not document the reasons for selecting applicants with lower scores than other applicants who
were not selected. These actions violated OAO’s draft policies and procedures, regulatory
requirements, and provisions in the Funding Opportunity Announcement (FOA).7 OAO did not
have oversight controls or other measures to prevent or detect staff failure to follow
requirements. The selection of less meritorious applicants could have negatively impacted
assistance to socially disadvantaged farmers and ranchers, and could have exposed the
Department to unnecessary criticism and potentially even legal action.

We reported these issues to the Assistant Secretary for Administration and to OAO officials on
May 18, 2012.8 In that report, we recommended that they take the following action:

    (1) Require an independent review panel of experts or qualified individuals, overseen by non-
        OAO officials, to determine the eligibility of the 193 applications submitted to OAO and
        to reevaluate those applications deemed to be eligible;
    (2) Require the independent review panel to score the applications and recommend those that
        should be selected to receive FY 2012 grants, as well as the amount of the awards;
    (3) Establish the criteria that will be used to fund exceptions to the recommendations made by
        the independent review panel; and
    (4) Require the OAO Director to document the selection process prior to public
        announcement of the awards.

The Assistant Secretary for Administration and the Director of OAO agreed with our findings
and recommendations (see Agency Response for Recommendations 1 through 4). OAO officials
subsequently took action to reevaluate the applications submitted for FY 2012 grants through the
Section 2501 Program and, on July 26, 2012, recommended 71 applicants for the Secretary’s
consideration. We evaluated the process used by OAO to select the 71 applicants and concluded
that it was more impartial and transparent than the process used initially to select applicants. We
provided our conclusions regarding the 71 applicants to the Acting Assistant Secretary for
Administration on August 2, 2012.

We did, however, have concerns with some of the policies and procedures used by OAO officials
during both the first- and second-round of selections of proposed grant recipients. We also had
concerns regarding the lack of internal controls to ensure that OAO officials complied with
policies and procedures, as well as with regulatory and FOA requirements, during the initial
selection of proposed grant recipients. The following sections describe our concerns:


7
 The FOA was issued in November 2011.
8
 “Controls over the Grant Management Process of the Office of Advocacy and Outreach—Section 2501 Program
Grantee Selection for Fiscal Year 2012” (Fast Report 91099-0001-21 (1), May 18, 2012).

                                                                   AUDIT REPORT 91099-0001-21              3
     Standard Operating Procedures Did Not Cite All Regulatory Requirements

     Our analysis of OAO’s draft standard operating procedures (SOP) disclosed that they
     were generally sufficient in identifying the roles and responsibilities of OAO personnel
     involved in the grant management process. However, we did identify numerous instances
     where the SOP lacked specific requirements listed in Title 7 Code of Federal Regulations
     (CFR) 2500, and the Catalog for Federal Domestic Assistance (CFDA). For example,
     SOP 202 did not include the requirement for the Department to retain one file copy of
     each proposal received, which in this case would be for a period of 3 years, as cited in
     7 CFR 2500.017. Additionally, SOP 206 lacked details contained in the CFDA that
     address OAO’s responsibility to provide the applicant an opportunity for a hearing, to
     appeal, or to pursue other administrative proceedings to which the applicant is entitled
     under any statute or regulation applicable to the action involved.

     OAO officials stated that the requirements were not included in the SOP because the staff
     member responsible for drafting the SOP relied only on CFR sections 3015, 3018, and
     3019. Additionally, no one in upper management approved the SOPs that were drafted.

     To correct this deficiency, OAO should revise the policy to incorporate those portions of
     the applicable CFR that have not been addressed to ensure proper oversight and
     administration of grants. Also, the OAO Director should review and approve the final
     policy to ensure that regulations are met and that required work is performed.

     Competition Guidelines Not Followed

     In reviewing the process OAO used to make determinations on which applicants would
     receive funding under the Section 2501 Program, we determined that OAO officials had
     not adhered to the competition guidelines required by the FOA. The FOA stated that new
     grants, as well as supplemental funds provided under existing grants, would be subject to
     evaluation. Through discussions with OAO officials, and our review of the initial scoring
     of the grants, we learned that the supplemental funds provided under existing grants were
     not subjected to evaluation during the initial grant selection process.

     When we questioned OAO personnel as to why this occurred, OAO personnel stated that
     the timeframes established did not allow for the supplemental funds provided under
     existing grants to be evaluated. OAO decided that if an existing grantee was in good
     standing as a result of timely submission of progress and financial reports, the grantee
     would receive supplemental funding. We then attempted to verify the good standing
     rating of the proposed recipients who were to receive supplemental funds by reviewing
     records retained by OAO, but we were unsuccessful because the records were not readily
     accessible upon our request for them. After unsuccessfully attempting to verify the good
     standing rating of the initially selected supplemental applicants, we determined that the
     evaluation process was inadequate. While we understand that timeframes can alter
     expected processes, this alteration was done without documented justification or support.




4   AUDIT REPORT 91099-0001-21
After the OIG Fast Report, OAO reevaluated all grant proposals based on the criteria set
forth in the FOA. In the future, we recommend that any deviation from the FOA be
justified and properly documented.

Actions Taken and Decisions Made Not Documented

Through our discussions with OAO personnel, as well as our review of files associated
with the grant selection process, we found examples of OAO personnel taking actions
without documenting the rationale behind the actions taken.

For instance, in comparing the scores assigned to the applications to the initial list of
proposed recipients, we noticed that OAO officials chose certain applicants over others
despite the fact that they scored lower in the grant proposal evaluation process. We also
noticed, as mentioned in the section above, that OAO officials chose not to evaluate the
grant proposals for supplemental funding applications based on the criteria set forth in the
FOA and certain ones were selected for funding. Additionally, while reviewing the
multiple lists of proposed recipients, we noticed that OAO officials were recommending
funding for proposed recipients that differed from the amounts they requested, either by
decreasing or increasing the funding amount. For every example mentioned in this
section, there was no documentation explaining the rationale or stating why the proposed
recipients and applicants were or were not selected, or why there were differences in the
amount of funding that proposed recipients would receive. As a result, we were unable to
determine if the proposed recipients were the most deserving applicants.

To correct this deficiency, OAO should include, in its policies and procedures, the
requirement to document any decision that affects the selection process or funding
amount. Additionally, the OAO Director should require any deviation from the FOA or
panel members’ decisions to be documented.

Inconsistencies in the Handling of Scores

OAO officials had not accurately transferred the panel members’ evaluation scores
during the evaluation of the grant proposals in May 2012. For example, when reviewing
the score sheets provided to the OAO Program Lead by the Panel Lead, we found that the
final averages, located on the panel members’ evaluation score sheets, did not match
what was entered into the spreadsheet provided to us by the Program Lead. The OAO
Program Lead stated that panel members provided their scores to each Panel Lead and
then to the Program Lead where the scores were consolidated. We found that there was
no second party or supervisory review of the Program Lead’s consolidated information
for accuracy. Subsequently, we found incorrect information within the spreadsheet OAO
provided. We noted at least 53 scores that did not average out to the same score OAO
presented on its spreadsheet. The 53 were incorrect due to user input errors. The
Program Lead stated that in her haste to complete this table she may have entered
numbers incorrectly. Although the miscalculations did not result in any material
differences concerning which applicants would ultimately receive funding, OAO should
ensure that the results of the evaluations are calculated correctly.


                                                       AUDIT REPORT 91099-0001-21          5
        During our subsequent review in July 2012, we once again found that some scores did not
        average out to OAO’s final score. In this instance, OAO stated the discrepancy occurred
        because some of the scores were “negotiated” to a specific score when the panel members
        regrouped to discuss the grant proposals, instead of being averaged out. Essentially, the
        panel members reevaluated the grant proposals without regard to the previous scores. We
        agreed that, while this method is allowable, the reason for the “negotiated” score needs to
        be documented, which OAO did not require.

        To correct these deficiencies, OAO should ensure that someone is reviewing and
        reconciling any mathematical computations used as an evaluating factor. This will
        mitigate the possibility of a mathematical error. Also, as mentioned previously,
        deviations from the FOA need to be documented and disclosed to ensure transparency.

        Discretionary Points Unnecessarily High and Not Disclosed to the Public

        OAO officials assigned 25 discretionary points to all applicants from States participating
        in the Strikeforce Initiative when it selected applications in July 2012. They took that
        action to assist underrepresented groups of socially disadvantaged farmers and ranchers
        located in the Strikeforce Initiative States who may not have received assistance
        comparable to farmers and ranchers located in States outside of the initiative. We
        question OAO’s decision to assign 25 discretionary points to applicants from States
        participating in the StrikeForce Initiative because it excluded 15 applicants who received a
        higher base score than applicants from StrikeForce States.9 Our analysis disclosed that
        those 15 applicants had scores above 89.7 (on a scale of 0 to 100) but were not selected to
        receive grants because applicants in StrikeForce States with base scores between 70.6 and
        89.6 were selected to receive grants. For example, had OAO used only 10 discretionary
        points instead of 25 only 5 of the 15 applicants with higher scores would have been
        excluded.

        We recognize that OAO needs to support Departmental initiatives. At the beginning of
        this process, OAO should have disclosed to the public that certain applications would
        receive 25 additional points to address Departmental initiatives.

As noted in the sections above and in our Fast Report, an OAO official disregarded FOA and
regulatory requirements during the initial selection of applicants for FY 2012 grants. 10 Our
recommendation in our Fast Report to reselect applications was based, in part, on the number
and degree of violations by the official. We would normally recommend consideration of
administrative action in these circumstances. However, the official is no longer involved with
the Section 2501 Program. Thus, we did not make such a recommendation.




9
  StrikeForce States are Arizona, Arkansas, Colorado, Georgia, Mississippi, Nevada, New Mexico, Texas,
and Utah.
10
   “Controls over the Grant Management Process of the Office of Advocacy and Outreach—Section 2501 Program
Grantee Selection for Fiscal Year 2012” (Fast Report 91099-0001-21 (1), May 18, 2012).

6     AUDIT REPORT 91099-0001-21
Recommendation 1
Require an independent review panel of experts or qualified individuals, overseen by non-OAO
officials, to determine the eligibility of the 193 applications submitted to OAO and to reevaluate
those applications deemed to be eligible.

Agency Response
OAO’s response to Fast Report 91099-0001-21 (1), dated May 2012, is posted on our website
(www.usda.gov/oig). OAO officials stated in the response that they would engage an
independent review panel of qualified individuals to reevaluate the 193 applications. The
process would be reviewed by a non-OAO official and would be completed by June 30, 2012.

OIG Position
We accept management decision for this recommendation.

Recommendation 2
Require the independent review panel to score the applications and recommend those that should
be selected to receive FY 2012 grants, as well as the amount of the awards.

Agency Response
OAO’s response to Fast Report 91099-0001-21 (1), dated May 2012, is posted on our website
(www.usda.gov/oig). OAO officials stated in the response that the review panel would score the
applications and, in conjunction with OAO officials, make recommendations of award amounts.
The action would be completed by June 30, 2012.

OIG Position
We accept management decision for this recommendation.

Recommendation 3
Establish the criteria that will be used to fund exceptions to the recommendations made by the
independent review panel.

Agency Response
OAO’s response to Fast Report 91099-0001-21 (1), dated May 2012, is posted on our website
(www.usda.gov/oig). OAO officials stated in the response that they would develop criteria to
fund exceptions by June 8, 2012.



                                                              AUDIT REPORT 91099-0001-21         7
OIG Position
We accept management decision for this recommendation.

Recommendation 4
Require the OAO Director to document the selection process prior to public announcement of the
awards.

Agency Response
OAO’s response to Fast Report 91099-0001-21 (1), dated May 2012, is posted on our website
(www.usda.gov/oig). OAO officials stated in the response that the OAO Director would review
the recommendation package, sign the selection documents, and ensure that all decisions were
fully documented by July 15, 2012.

OIG Position
We accept management decision for this recommendation.

Recommendation 5
Instruct the OAO Director to revise and approve OAO policy to ensure the incorporation of
portions of any CFRs that have not been addressed to make sure regulations are met and the
work that must be performed is carried out.

Agency Response
OAO stated in its response, dated February 11, 2013, that it has revised the SOP to include the
requirement that the OAO Director will review, approve, and implement all final policy and
procedures addressing the monitoring of grantees. These internal policies and procedures have
been revised to include all regulatory citations that govern the 2501 Program. OAO anticipates
final clearance from the Office of the Chief Financial Officer (OCFO) and the OAO Director’s
final approval by February 28, 2013.

OIG Position
We accept management decision for this recommendation.

Recommendation 6
Require OAO to include in its SOP the requirement to document and disclose all actions or
rationales used that affect the selection process or funding amount for grant programs to ensure
transparency. Additionally, OAO should include in its SOP the requirement that any deviation
from the FOA or panel members’ decisions be documented.

8    AUDIT REPORT 91099-0001-21
Agency Response
OAO stated in its response, dated February 11, 2013, that in consultation with OCFO, OAO has
developed procedures to include the disclosure and documentation of all actions and/or rationales
affecting the selection process or funding amounts to ensure program transparency. Any
program guidance deviations, including instructions given to the panel reviewers, as well as
criteria provided in the FOA will be documented as outlined in the newly revised SOP. OAO
anticipates final clearance from OCFO and the OAO Director’s final approval by February 28,
2013.

OIG Position
We accept management decision for this recommendation.

Recommendation 7
Require OAO to ensure a supervisor is reviewing and reconciling any mathematical
computations used as an evaluating factor.

Agency Response
OAO stated in its response, dated February 11, 2013, that it has revised the SOP to reflect a
second level review of all mathematical computations used as an evaluating factor. A final
review will be conducted by the Program Director to ensure mathematical computations are
accurate. OAO anticipates final clearance from OCFO and the OAO Director’s final approval by
February 28, 2013.

OIG Position
We accept management decision for this recommendation.

Recommendation 8
Require OAO to disclose, in the FOA, any special criteria that will factor into the proposal
evaluation process.

Agency Response
OAO stated in its response, dated February 11, 2013, that it has revised the SOP to include the
requirement that the FOA disclose all special criteria factoring into the proposal evaluation
process, including the discretionary points awarded based on Secretarial priority. This includes
disclosing the maximum number of points to be awarded under this provision. OAO anticipates
final clearance from OCFO and the OAO Director’s final approval by February 28, 2013.




                                                              AUDIT REPORT 91099-0001-21       9
OIG Position
We accept management decision for this recommendation.




10    AUDIT REPORT 91099-0001-21
Finding 2: FYs 2010 and 2011 Section 2501 Grant Funds Not
Monitored
OAO officials had not monitored Section 2501 grants made in FYs 2010 and 2011. This
occurred because OAO officials (1) did not assign monitoring duties to personnel, (2) did not
have policies and procedures or compensating controls in place for handling monitoring of the
Section 2501 grants in FY 2010, and (3) did not fully follow draft procedures once OAO had
them in place in FY 2011. Given these problems, we concluded that there is reduced assurance
that Section 2501 funds were being used for their intended purposes and were accomplishing the
program’s goals.

Federal regulations require agencies to monitor an award throughout its lifetime.11 This includes
reviewing progress and financial reports, as well as conducting onsite visits as warranted by the
program.12

For FY 2010 and FY 2011, OAO awarded a combined total of 119 grants, totaling $38 million.
When we asked OAO for evidence of monitoring reviews performed, OAO officials stated that
they had not performed any reviews. The officials stated that no one had been assigned the role
or responsibility of monitoring community-based organizations.

It was not until August 2011 that OAO created a draft SOP for staff to use during the grant
management process.13 The monitoring section of the draft SOP provided instruction for
reviewing progress and financial reports and conducting onsite visits. These procedures stated
that the program lead and program staff were responsible for day-to-day ongoing programmatic
performance of each grant awarded.14 At a minimum, the program lead and program staff were
required to review and approve quarterly progress reports and financial reports to ensure
consistency between the two reports.

OAO officials informed us they were held responsible for reviewing and approving quarterly
progress and financial reports. When we questioned how OAO officials were monitoring
previously awarded grants, the acting program lead stated she had not been reviewing or
approving any progress or financial reports for these grantees because she was instructed to focus
only on the FY 2012 grant process. The Deputy Director gave this instruction as he was going to
monitor awards made prior to FY 2012. However, this consisted mainly of ensuring only that
the reports were received by OAO. The officials also stated that until October 2011, grantees
were submitting the wrong type of reports. Once OAO staff identified this problem, they moved
all grantees over to the Payment Management System that the Department of Health and Human
Services (HHS) administers.15 However, under this system, the financial reports go directly to

11
   7 CFR 2500, dated October 26, 2011.
12
   Recipients are also expected to comply with the Single Audit Act by submitting an independent audit when they
receive $300,000 or more.
13
   These procedures were drafted by a contractor, under the guidance of OAO staff. As discussed in Finding 1, these
procedures had not been reviewed or approved by OAO management.
14
   The program staff consisted of a Grants and Agreements Manager, Grant Specialist, and Program Assistant.
15
   OAO staff chose to use HHS because OAO was understaffed, did not having a proper payments system in place,
and believed that the HHS system would fit OAO’s needs.

                                                                      AUDIT REPORT 91099-0001-21               11
HHS, and as long as there are no inconsistencies, HHS continues distribution of the grantee’s
funding. No additional review would be necessary to receive funding.

It should be noted that during this audit we focused on the FY 2012 grantee selection process.16
Therefore, we did not travel to or take a sample of reports from prior awarded grantees to
determine if funds were being used properly. However, we did conclude that the lack of
monitoring was a control deficiency that needed to be reported to OAO officials.

We also found that OAO’s draft policy concerning onsite monitoring reviews was not being
followed by OAO staff. The appendix instructed staff to conduct evaluative reviews of at least
10 percent of its active grant recipients, including onsite and offsite evaluations, although it
specified that onsite reviews depended on the availability of travel funds and the necessity of
conducting an ongoing evaluation for a particular project. According to the Deputy Director,
onsite reviews were not being performed due to lack of adequate funding. He stated that the
review of quarterly progress and financial reports compensated for the lack of onsite reviews.
However, he was unaware that OAO was previously comparing the wrong reports and that
currently, grantees can obtain funding without anyone reviewing a progress report. In addition,
we attempted to verify that OAO was receiving the required quarterly progress and financial
reports, but we were unsuccessful because OAO could not locate these reports when we
requested them.

OAO officials agreed they have not been monitoring the grantees. The OAO Director explained
that she is working with OCFO to implement new procedures for monitoring the progress of FYs
2011 and 2012 grantees. In addition, OAO officials agreed that roles and responsibilities have
not been properly assigned because OAO was a new office and key positions had remained
vacant until October 2011.

Recommendation 9
Require the OAO Director to review, approve, and implement the final policy and procedures
currently being drafted addressing the monitoring of the grantees.

Agency Response
OAO stated in its response, dated February 11, 2013, that it has revised the SOP to include the
requirement of the OAO Director performing the final review and approval of all policies and
procedures governing program implementation and monitoring of grantees. The OAO Director-
approved SOP is in OCFO for final clearance. OAO anticipates final clearance from OCFO and
the OAO Director’s final approval by February 28, 2013.

OIG Position
We accept management decision for this recommendation.

16
  We plan to perform a separate audit of grants awarded under the Section 2501 Program in FY 2010 and FY 2011.
This audit was initiated in January 2013.

12      AUDIT REPORT 91099-0001-21
Recommendation 10
Require the OAO Director to assign roles and responsibilities to the proper staff so that
monitoring activities are being performed by appropriate staff.

Agency Response
OAO stated in its response, dated February 11, 2013, that OAO staff’s assigned roles and
responsibilities are incorporated in their position descriptions. The 2501 Program Director’s
position description has been modified to include the requirement to monitor staff and grantee
duties and responsibilities.

OIG Position
We accept management decision for this recommendation.




                                                             AUDIT REPORT 91099-0001-21          13
Scope and Methodology
We performed an audit of OAO’s grant management activities related to the Section 2501
Program. We performed work at OAO, located in Washington, D.C., from April through
July 2012.

Our audit focused on the FY 2012 Section 2501 Program grants. To determine the merit of the
grants awarded, we evaluated the 193 submitted grant applications for the FY 2012 Section 2501
Program, the initial selection of 57 applicants to receive over $17 million in funds, and the
subsequent selection of 68 applicants to receive over $19 million in funds after OAO
implemented corrective actions to its process. We also evaluated OAO’s policies, procedures,
and internal controls to determine the effectiveness of OAO’s overall grant management process.
In addition, based on weaknesses we noted during the selection of FY 2012 Section 2501 grants,
we expanded our audit scope to include OAO’s policies and procedures for monitoring the use of
funds for grants made in FYs 2010 and 2011.

To accomplish our objectives we:

     ·   Interviewed OAO officials responsible for the selection, oversight, and management of
         the Section 2501 Program grants.

     ·   Reviewed applicable laws and regulations such as 7 CFR 3015.158, Uniform Federal
         Assistance Regulations; 7 CFR 2500, OAO Federal Financial Assistance Programs,
         General Award Administrative Procedures; and 7 CFR 3016, Uniform Administrative
         Requirements.

     ·   Reviewed OAO’s policies and procedures, including a draft SOP developed in 2011.

     ·   Evaluated the FY 2012 FOA to ensure OAO properly solicited applications and that it
         followed all requirements set forth in the announcement.

     ·   Evaluated criteria used to score applications and the methodology used for selection of
         grantees to ensure fair and equitable selection of applicants.

     ·   Reviewed and analyzed OAO’s April 2012 and July 2012 universe of applications,
         selected applications, funding amounts, applicant proposals, and evaluation scores to
         ensure the most meritorious applications were selected with the proper amount of
         funding.

     ·   Reviewed and analyzed the criteria OAO used to score applications and the methodology
         it followed to select applicants in July 2012 to ensure OAO addressed recommendations
         from OIG’s Fast Report, dated May 18, 2012.17



17
  “Controls over the Grant Management Process of the Office of Advocacy and Outreach—Section 2501 Program
Grantee Selection for Fiscal Year 2012” (Fast Report 91099-0001-21 (1), May 18, 2012).

14       AUDIT REPORT 91099-0001-21
   ·   Reviewed and analyzed financial reports generated by grant recipients to document
       spending activity.

We conducted our audit in accordance with generally accepted government auditing standards.
These standards require that we plan and perform the audit to obtain sufficient and appropriate
evidence to provide a reasonable basis for our findings and conclusions based on our objectives.
We believe that the evidence obtained provides a reasonable basis for our findings.

During the course of our audit, we did not verify information in any OAO electronic information
system, and make no representation regarding the adequacy of any agency computer systems or
the information generated from them.




                                                           AUDIT REPORT 91099-0001-21         15
Abbreviations

CFR ............................Code of Federal Regulations
FOA............................Funding Opportunity Announcement
FY ..............................Fiscal Year
OAO ...........................Office of Advocacy and Outreach
OCFO .........................Office of the Chief Financial Officer
OIG ............................Office of Inspector General
Section 2501 ..............Outreach and Assistance for Socially Disadvantaged Farmers and
                                 Ranchers Program
SOP ............................Standard Operating Procedure
USDA.........................United States Department of Agriculture




16     AUDIT REPORT 91099-0001-21
Agency’s Response




                 USDA’S
       DEPARTMENTAL MANAGEMENT
        RESPONSE TO AUDIT REPORT




                       AUDIT REPORT 91099-0001-21   17
United States
Department of
Agriculture
                                                                                 February 11, 2013
Office of the
Assistant Secretary   AUDIT
for Administration    NUMBER:       91011-0001-21
1400 Independence
Avenue SW             TO            Rod DeSmet
Washington, DC                      Deputy Assistant Inspector General for Audit
20250-0103

                      THROUGH: Gregory L. Parham//original signed//
                               Acting Assistant Secretary for Administration

                      THROUGH: Phyllis Holmes//original signed//
                               Agency Liaison Officer

                      FROM:         Carolyn C. Parker//original signed//
                                    Director
                                    Office of Advocacy and Outreach

                      SUBJECT: Controls over the Grant Management Process of the
                        Office of Advocacy and Outreach


                      This is in response to the audit report number 91011-0001-21 dated December 20,
                      2012, regarding the improvement of the policies, procedures, and internal controls
                      used by the Office of Advocacy and Outreach (OAO) to select recipients of grants
                      funded through the Outreach and Assistance for Socially Disadvantaged Farmers
                      and Ranchers Program (2501).

                      We have reviewed the findings contained in the report and acknowledge the
                      acceptance of 4 of 10 management’s decisions. The remaining six are addressed as
                      follows:

                      Recommendation 5

                      Instruct the OAO Director to revise and approve OAO policy to ensure the
                      incorporation of portions of any CFRs that have not been addressed to make sure
                      regulations are met and the work that must be performed is carried out.

                      Agency Response

                      OAO has revised the Standard Operating Procedures (SOPs) to include the
                      requirement that the OAO Director will review, approve, and implement all final
                      policy and procedures. These internal policies and procedures have been revised to
                      include all regulatory citations that govern the 2501 Program. We anticipate the


                                              An Equal Opportunity Employer
final clearance from OCFO and the OAO Director’s final approval by February 28,
2013.

Controls over the Grant Management Process of the                                  2
Office of Advocacy and Outreach



Recommendation 6

Require OAO to include in its SOP the requirement to document and disclose all
actions or rationales used that affect the selection process or funding amount for
grant programs to ensure transparency. Additionally, OAO should include in its
SOP the requirement that any deviation from the FOA or panel members’ decisions
be documented.

Agency Response

In consultation with the OCFO, OAO has developed procedures to include the
disclosure and documentation of all actions and/or rationales affecting the selection
process and funding amounts to ensure program transparency. Any program
guidance deviations, including instructions given to the panel reviewers, as well as
criteria provided in the Funding Opportunity Announcement (FOA) will be documented,
as outlined in the newly revised SOPs. We anticipate the final clearance from OCFO
and the OAO Director’s final approval by February 28, 2013.

Recommendation 7

Require OAO to ensure someone is reviewing and reconciling any mathematical
computations used as an evaluating factor.

Agency Response

OAO has revised the SOPs to include the requirement for a second level review of
all mathematical computations used in the evaluating process. In addition, a final
review will be performed by the Program Director to ensure accuracy. The revised
SOPs are in the OCFO for final clearance. We anticipate the final clearance from
OCFO and the OAO Director’s final approval by February 28, 2013.

Recommendation 8

Require OAO to disclose to the public special criteria that will factor into the
proposal evaluation process.




                         An Equal Opportunity Employer
Controls over the Grant Management Process of the                                        3
   Office of Advocacy and Outreach


           Agency Response

           OAO has revised the SOPs to include the requirement that the FOA disclose all
           special criteria factored into the proposal evaluation process, including the
           discretionary points awarded based on Secretarial priority. This includes disclosing
           the maximum number of points to be awarded under this provision. The revised
           SOPs are in the OCFO for final clearance. We anticipate the final clearance from
           OCFO and the OAO Director’s final approval by February 28, 2013.

           Recommendation 9

           Require the OAO Director to review, approve, and implement the final policy and
           procedures currently being drafted addressing the monitoring of the grantees.

           Agency Response

           OAO has revised the SOPs to include the requirement of the OAO Director to
           perform the final review and approval of all policies and procedures governing
           program implementation, including the monitoring of grantees. The OAO Director
           approved SOPs are in the OCFO for final clearance. We anticipate the final
           clearance from OCFO and the OAO Director’s final approval by February 28, 2013.

           Recommendation 10

           Require the OAO Director to assign roles and responsibilities to the proper staff so
           that monitoring activities are being performed by appropriate staff.

           Agency Response

           The OAO staff’s assigned roles and responsibilities are incorporated into their
           position descriptions. The 2501 Program Director’s position description has been
           modified to include the requirement to monitor staff and grantee duties and
           responsibilities.




                                    An Equal Opportunity Employer
Informational copies of this report have been distributed to:

Administrator, Departmental Management
 Attn: Agency Liaison Officer

Government Accountability Office

Office of Management and Budget

Office of the Chief Financial Officer
 Attn: Director, Planning and Accountability Division
 To learn more about OIG, visit our website at
 www.usda.gov/oig/index.htm
 How To Report Suspected Wrongdoing in USDA Programs

 Fraud, Waste and Abuse
 e-mail: USDA.HOTLINE@oig.usda.gov
 phone: 800-424-9121
 fax: 202-690-2474

 Bribes or Gratuities
 202-720-7257 (24 hours a day)




The U.S. Department of Agriculture (USDA) prohibits discrimination in all of its programs and activities on
the basis of race, color, national origin, age, disability, and where applicable, sex (including gender identity
and expression), marital status, familial status, parental status, religion, sexual orientation, political beliefs,
genetic information, reprisal, or because all or part of an individual’s income is derived from any public
assistance program. (Not all prohibited bases apply to all programs.) Persons with disabilities who require
alternative means for communication of program information (Braille, large print, audiotape, etc.) should
contact USDA’s TARGET Center at (202) 720-2600 (voice and TDD).
To file a complaint of discrimination, write to USDA, Assistant Secretary for Civil Rights, Office of the Assistant
Secretary for Civil Rights, 1400 Independence Avenue, S.W., Stop 9410, Washington, DC 20250-9410, or call
toll-free at (866) 632-9992 (English) or (800) 877-8339 (TDD) or (866) 377-8642 (English Federal-relay) or
(800) 845-6136 (Spanish Federal relay).USDA is an equal opportunity provider and employer.
